   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



February 17, 2010

Report Number: A-07-09-00321

Ms. Sandra Miller
Senior Vice President and President, Federal Government Solutions
National Government Services, Inc.
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Pension Segmentation Requirements for the
Hourly Qualified Pension Plan at Blue Cross Blue Shield United of Wisconsin, for the Period
January 1, 1986, to December 31, 1998. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00321
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sandra Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
   Department of Health & Human Services

              OFFICE OF
         INSPECTOR GENERAL


      REVIEW OF THE PENSION
 SEGMENTATION REQUIREMENTS FOR
THE HOURLY QUALIFIED PENSION PLAN
    AT BLUE CROSS BLUE SHIELD
       UNITED OF WISCONSIN,
  FOR THE PERIOD JANUARY 1, 1986,
       TO DECEMBER 31, 1998




                        Daniel R. Levinson
                         Inspector General

                          February 2010
                          A-07-09-00321
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield United of Wisconsin

Blue Cross Blue Shield United of Wisconsin (BCBSUW), through its United Government
Services business unit, administered Medicare Part A operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS). During our audit period
(January 1, 1986, to December 31, 1998), BCBSUW maintained two defined benefit pension
plans: a salaried pension plan and an hourly pension plan. For the purpose of this report, the
term BCBSUW will be associated with the findings concerning the segmentation of the hourly
pension plan pension assets for the period January 1, 1986, to December 31, 1998.

Medicare

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Procurement Regulations, Federal Acquisition Regulation (FAR), Cost Accounting
Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated specific segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment pension assets to be
updated for each year after the initial allocation in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether BCBSUW complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   identifying the Medicare segment’s pension asset base as of January 1, 1986, and

   •   updating the Medicare segment’s pension assets from January 1, 1986, to
       December 31, 1998.

SUMMARY OF FINDINGS

BCBSUW correctly computed the initial allocation of the Medicare segment pension assets as of
January 1, 1986; however, BCBSUW used an incorrect total company investment earnings
amount when allocating investment earnings to the Medicare segment for calendar years 1994
and 1995. As a result, BCBSUW understated the Medicare segment pension assets by $5,844.




                                                 i
RECOMMENDATIONS

We recommend that BCBSUW:

    •   increase its Medicare segment pension assets as of December 31, 1998, by $5,844 and
        recognize $5,029,061 as the Medicare segment pension assets; and

    •   implement controls to ensure that in the future the Medicare segment is updated in
        accordance with CAS 412 and 413.

AUDITEE COMMENTS

In written comments on our draft report, National Government Services (NGS) concurred with
our findings and recommendations and described corrective actions that it will take. NGS stated
that BCBSUW’S Medicare contract was novated to NGS effective January 1, 2007; therefore,
NGS responded to our draft report.

While concurring with the findings and recommendations, NGS also suggested several revisions
to the text of the report.

NGS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s written comments, we revised the background section to clarify the
relationship between BCBSUW and NGS. We also revised the references (in Appendix A) to
the asset variance for the “Other” segment and the “Medicare” segment as NGS had suggested;
these revisions, though, did not have an effect on either the substance or the dollar amounts in
our findings and recommendations. After reviewing the other revisions suggested by NGS, we
determined that those revisions do not enhance the clarity or accuracy of this report; therefore,
we did not make the other suggested revisions.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Blue Cross Blue Shield United of Wisconsin ....................................................... 1
              Medicare ............................................................................................................... 1
              Federal Requirements ........................................................................................... 1
              Pension Segmentation ........................................................................................... 2

          OBJECTIVE, SCOPE AND METHODOLOGY ............................................................. 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          MEDICARE ASSET BASE (INITIAL ALLOCATION) AS OF JANUARY 1, 1986 ... 3

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS.......................................... 4
              Federal Requirements ........................................................................................... 4
              Earnings and Expenses Understated ..................................................................... 4

          RECOMMENDATIONS .................................................................................................. 4

OTHER MATTER...................................................................................................................... 4

          AUDITEE COMMENTS.................................................................................................. 4

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 5

APPENDIXES

       A – BLUE CROSS BLUE SHIELD UNITED OF WISCONSIN STATEMENT OF
           MARKET VALUE OF HOURLY PENSION PLAN ASSETS FOR THE PERIOD
           JANUARY 1, 1986, TO DECEMBER 31, 1998

       B – AUDITEE COMMENTS




                                                                     iii
                   Glossary of Abbreviations and Acronyms

BCBSUW   Blue Cross Blue Shield United of Wisconsin
CAS      Cost Accounting Standards
CMS      Centers for Medicare & Medicaid Services
FAR      Federal Acquisition Regulation
NGS      National Government Services
UGS      United Government Services




                                       iv
                                        INTRODUCTION

BACKGROUND

Blue Cross Blue Shield United of Wisconsin

Blue Cross Blue Shield United of Wisconsin (BCBSUW), through its United Government
Services (UGS) business unit, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS). During our
audit period (January 1, 1986, to December 31, 1998), BCBSUW maintained two defined benefit
pension plan: a salaried pension plan and an hourly pension plan.

On January 1, 1999, United Wisconsin Services, Inc. (UWSI), the parent company of BCBSUW,
merged the salaried pension plan and the hourly pension plan. During the same time, UWSI
established a separate defined benefit pension plan, UGS Pension Plan, and moved all of its
government program employees into that pension plan.

In 2003, BCBSUW and UGS were purchased by WellPoint Health Networks, Inc. (WHN).
WHN became a part of Anthem, Inc., on November 30, 2004, and Anthem, Inc., changed its
name to WellPoint, Inc. Effective November 17, 2006, a consolidation of certain Medicare
operations occurred, forming a new subsidiary of WellPoint, Inc., called National Government
Services (NGS). This consolidation included UGS, and the UGS pension plan remained a stand-
alone defined benefit pension plan. Thus, although we are addressing this report to NGS, we
will associate the term BCBSUW with our findings and recommendations regarding the
segmentation of the hourly pension plan pension assets for the period January 1, 1986, to
December 31, 1998.

Medicare

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Procurement Regulations, Federal Acquisition Regulation (FAR), Cost Accounting
Standards (CAS), and Medicare contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.




                                                 1
Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment pension assets to be updated for each year after the initial allocation in
accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether BCBSUW complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    identifying the Medicare segment’s pension asset base as of January 1, 1986, and

   •    updating the Medicare segment’s pension assets from January 1, 1986, to
        December 31, 1998.

Scope

We reviewed BCBSUW’s initial allocation of the Medicare segment’s pension assets and its
update of the Medicare segment’s pension assets from January 1, 1986, to December 31, 1998.

Achieving our objectives did not require us to review BCBSUW’s overall internal control
structure. However, we reviewed controls relating to the identification of the Medicare segment,
the initial allocation of the Medicare segment pension assets, and the update of the Medicare
segment’s pension assets.

We performed fieldwork at BCBSUW’s office in Milwaukee, Wisconsin, during August 2009.

Methodology

To accomplish our objective, we did the following:

   •    We reviewed the applicable portions of the FAR, CAS, and Medicare contracts.

   •    We reviewed the information provided by BCBSUW’s actuarial consulting firm, which
        included the pension plan’s assets, liabilities, normal costs, contributions, benefit
        payments, investment earnings, and administrative expenses. We used this information
        to calculate the Medicare segment pension assets.




                                                2
   •   We obtained and reviewed the pension plan documents, actuarial valuation reports, and
       Department of Labor/Internal Revenue Service Forms 5500 used in calculating the
       Medicare segment pension assets.

   •   We interviewed BCBSUW staff responsible for identifying the Medicare segment to
       determine whether the segment was properly identified in accordance with the Medicare
       contracts.

   •   We reviewed BCBSUW’s accounting records to verify the segment identification and
       benefit payments made to the Medicare segment.

   •   We provided the CMS Office of the Actuary with the actuarial information necessary for
       it to calculate the Medicare segment pension assets as of December 31, 1998.

   •   We reviewed the CMS actuaries’ methodology and calculations.

We performed a separate review of the BCBSUW salaried pension plan (A-07-09-00322).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

BCBSUW correctly computed the initial allocation of the Medicare segment pension assets as of
January 1, 1986; however, BCBSUW used an incorrect total company investment earnings
amount when allocating investment earnings to the Medicare segment for calendar years 1994
and 1995. As a result, BCBSUW understated the Medicare segment pension assets by $5,844.

Appendix A presents details on the Medicare segment’s pension assets from January 1, 1986, to
December 31, 1998, as determined during our audit.

MEDICARE ASSET BASE (INITIAL ALLOCATION) AS OF JANUARY 1, 1986

The Medicare contracts provide for separate identification of the pension assets for the Medicare
segment. The identification involves the allocation of assets to the Medicare segment as of the
first pension plan year after December 31, 1985, in which the salary criterion was met. The
allocation is to use the ratio of the actuarial liabilities of the Medicare segment to the actuarial
liabilities of the total plan, as of the later of the first day of the first plan year after
December 31, 1980, or the first day of the first pension plan year following the date such
Medicare segment existed. This ratio is known as the asset fraction.




                                                 3
BCBSUW correctly computed the asset fraction of 7.6710 percent as of January 1, 1981.
Furthermore, BCBSUW correctly computed the initial allocation of the Medicare segment
pension assets totaling $1,290,163 as of January 1, 1986.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts state that “. . . the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, unfunded accruals, income, benefit payments, and
expenses. The CAS requires investment income and expenses to be allocated among segments
based on the ratio of the segment’s average value of assets to total company average value of
assets.

Earnings and Expenses Understated

BCBSUW understated investment earnings, less administrative expenses, by $5,844 for the
Medicare segment primarily because it used an incorrect total company investment earnings
amount when allocating investment earnings to the Medicare segment for calendar years 1994
and 1995. We allocated earnings and expenses, based on the applicable CAS requirements, and
determined that BCBSUW understated the Medicare segment pension assets by $5,844.

RECOMMENDATIONS

We recommend that BCBSUW:

    •    increase its Medicare segment pension assets as of December 31, 1998, by $5,844 and
         recognize $5,029,061 as the Medicare segment pension assets; and

    •    implement controls to ensure that in the future the Medicare segment is updated in
         accordance with CAS 412 and 413.

                                          OTHER MATTER

BCBSUW correctly computed that the pension plan was fully funded throughout the audit
period. Therefore, BCBSUW was correct when it did not claim any pension cost for Medicare
reimbursement for fiscal years 1988 through 1998.

AUDITEE COMMENTS

In written comments on our draft report, NGS 1 concurred with our findings and
recommendations and stated that it will make the appropriate adjustments to the Medicare


1
 BCBSUW’S Medicare contract was novated to NGS effective January 1, 2007; therefore, NGS responded to our
draft report.


                                                     4
segment pension assets. In addition, NGS stated that it will review the processes in place to
update the Medicare segment plan assets to ensure that those processes follow the provisions of
CAS 412 and 413.

While concurring with the findings and recommendations, NGS also suggested several revisions
to the text of the report. Specifically, NGS requested that we make the following revisions:

   •   Revise the “Summary of Findings” paragraph in both the Executive Summary and the
       body of our report to indicate that BCBSUW used an incorrect total company benefit
       payments amount when allocating investment earnings to the Medicare segment for
       calendar year 1994, and that a portion of 1995 income was allocated to 1994.

   •   Revise the background section to further clarify the relationship between BCBSUW and
       NGS.

   •   Revise the “Earning and Expenses” section to indicate that the understatement primarily
       occurred because BCBSUW used an incorrect total company benefit payments when
       allocating investment earnings to the Medicare segment in calendar year 1994.

   •   In the Appendix, revise the asset variance to indicate ($5,844) for the “Other” segment
       and $5,844 for the “Medicare” segment.

NGS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s written comments, we revised the background section to clarify the
relationship between BCBSUW and NGS. We also revised the references (in Appendix A) to
the asset variance for the “Other” segment and the “Medicare” segment as NGS had suggested;
these revisions, though, did not have an effect on either the substance or the dollar amounts in
our findings and recommendations. After reviewing the other revisions suggested by NGS, we
determined that those revisions do not enhance the clarity or accuracy of this report; therefore,
we did not make the other suggested revisions.




                                                 5
APPENDIXES
                       APPENDIX A: BLUE CROSS BLUE SHIELl) UNITED OF WISCONSIN 

                       STATEI\IENT OF iVIAIH(ET VALUE OF HOlIRLY PENSION ASSETS 

                                             FOI{ Tin: PERIOD 

                                  .JANl'ARY I, 1986, TO I)ECI<~MBER 31,1998 


               Description                    Total Company         "Otht'r" Segment           Mt'dicarc Segment

Assets   Januar~   I. 19RI>             J!        $16.RI8.713            $\S.52R.550                  $1.29().163

Transferred Prepayment Credits                                0                        ()                         0
Contributions                           ~                     ()                       ()                         ()

Other Transactions                      ' 1
                                        :J~                  62                    62                             0
Earnings                                1L          2.938 . 102             2.712.773                    225J2')
Bcnct1t Payments                        ,5           (2(d ,9(9)              (21IJ()~)                   (211.()c)(')

Expcnscs                                ()           (159.277)               ( I·n.o()'.)                (12.215 )
Transkrs                                7                     ()               (()O.!C'))                 (,(IX)')



Assets January I. 19R7                            $19.335.601             $17.792.1 C) 1              $1.51).110

Transferred Prepayment Credits          1\/                   ()                        ()                        0
Contributions                                                 0                         0                         ()

Othcr Transactions                                       (3.171 )                (3.171 )                         ()

Earnings                                             1.3'7S,217              1.26S.329                   1(F).ggg
Benefit Paymcnts                                      (459.552)               (/126.061 )                (.1.1.191 )
Expenses                                             (l ·l1.0l)6)             ( 129.822)                 (I 1.271)
Trans lers                                                    ()                (90.81)())                 'HUSOO

)\ssets Januar) I. 19R9                           $20.106.999             $ll\,clO7/,h(,              Sl N)').lJ)

IransfCrred I'r.:pa~ 111':11! Cr.:dib                         ()                        I)                        ()

Contribut iOlls                                               0                         ()                        0
Othcr Transactions                                            ()                        ()                        ()

l::arnings                                           2.253 .R30              2.062.·IS9                  19UII
Benefit Payments                                      (723.460)               (677.373)                  (-I (d)S 7)
Expenses                                              ( 130,594)              ( 119.5(7)                 ( II.OX7)
Transi'ers                                                    0                 (92.307)                   92.307

Asscts Janllar) I. 19R9                           $21.506.775             'b19.5RO.%X                 S1,925.iW7

Transferred Prepayment Credits                                0                         0                         ()

Contri but ions                                               0                         iI                        ()

Other Transactions                                            ()                        Ii                        (J

I~arnings                                            3.259.720               1.9M.71S')                  29·1.931
Benefit Payments                                      (9R1.74X)               (93J.O(l.l)                (IR.(,S))
Expenses                                              ( IR3.2(4)              ( 166.(28)                 ( 1(1.576)
Transfers                                                      ()                (7.591 )                   7.5(),1

Asscts January 1. 199()                            $23.601.543            $2I.:13R .,172              $2.1 (,' J)71

Transl'crred Prepayment Credits                                0                        (J                         0
Contrib\ltiuns                                                 ()                       ()                         0
Other Transactions                                             0                        ()                         ()

Earning.,                                              509.979                 ·1(,:'.') 1.1               ·1 .Oill'
Benelit I'a) Illen!s                                  (RRO.3h(, )             (R29.3')2 )                 (50.9,.'
I:xpl:nscs                                            ( leIS.(77)             ( 13 I.()XX)                (ILl
Translers                                                      ()                (9.3(,) )                   9J(",

;\ssets January 1. 1991                            $23.0X6.079            S>1(J.9J{).9.12              $2155.U7
               Drscription           Tota

Assets .I anuary I, I9() I

Trunsferred Prepayment Credits                      ()                 o                 o
Contributions                                       o                  o                 o
Other Transactions                                  o                  o                 ()
Earnings                                    ,1.350.49X      3.9,16.%<)           103,519
Benelit Payments                             (729.775 )      (0.\4.\9, )         (9:'.2iQ!
Expenses                                     L~09.0IX)       ( I i\9.6; I )      (l'UX7)
Truns!crs                                           ()          37.3;; I         {,i7J5\ )

Assc\s Junllary I. 1992                           7X4               III

Transferred Prepayment Credits                      o                  ()                ()

Contributions                                       o                  ()                ()

Other Transactions                                  ()                 ()                ()

Earnings                                    I,J90,()62      1.264.7X7            125.275
Ilcncfit Payments                            (775,XX I)      (6MUIC))           (107.1'\2)
Expenses                                     (216,550)       (197.031 )          (19.5 J(,)
Transil:rs                                          ()         5X.O()6           (5X.()()(,)

                                                    15              151

iransi'el'l'ed Pn:paymcl1t Credits                   ()                 ()               o
Contributions                                        o                  ()               Ii
Otller 'I' rnnsact ions                              ()                 ()               ()

Eurnings                                    2,704,246       2.467.7:11           2,(1.:; 1~
Benefit Payments                             (665.271)       (6 17'()X'))        (·IX.I X2)
Expenscs                                     (229.441 )      (209,371)
Transfers                                            o          2J.327

Assels January I, 19(H                                          12.711-:

Transll:rred Prcpayment Credits                      ()                 ()

Contributiolls                                       ()                 ()

Olher Transactions                                   ()                 ()

Earnings                                     (279,795)        (255,tl:;) )
Bcnel1t Payments                             (769,OX7)        (715.·110)         (53.(,77)
Expenses                                     ( 194.557)       (17;1.121)         (20,U()i
Trans!l:rs                                           ()           J,7,17

Assets .Ianuar) 1. 1995                      .'161.510    $25,()7 1,50')      S2J')O.OOI

Iranslcrred Prepaymcnl Crc:dits                      o                  ()

Contributions                                        ()                 ()

Other Truns<lctions                                  o                  ()

Earnings                                    6.6X6.53I       6.I02.X17
Bencfit Paymcnts                             (913.441)       (X5 f.()30)
Expenses                                     (243.239)       (219.121 )
Transfers                                            o          (5.31\6)
                                                                                                                                                  I'age -' o[',j



                         Description                                Total Compan)'                 "Other" Segment                Mcdicare Segmcnt

       Assets January 1, 1996                                              $32,991 JG 1                    $30,09X,XOh                       'li2,X92,555

       Transferred Prera)lllent Credits                                                  ()                                ()                            0
       Contri but ions                                                                   ()                                ()                            IJ
       Other Transactions                                                                ()                              (I                              II
       Earnings                                                               cl.7M.679                       ·1,315,('32                       ,II 'HId 7
       [knelil PaYlllents                                                      (99R,171)                       (931.112)                         (()(),Xh2 I
       I';xpcnses                                                              (271.3 II)                      (2,1·1.5117)                      (2('.H(),[ I
       Transfers                                                                       0                       (165,37h)                         16'i.3 7(,

       Assets January I, 1997                                              $36.4XG.555                     'li33, I03.2<1.\                  $J.3X.l.] 12

       Transferred Pn:paYlllcnt Cn:dits                                                   0                                0                             ()

       Contributions                                                                      0                                (I                            0
       Other Transactions                                                                 0                                II                            II
       Earnings                                                                h.291.67R                       ),72').,'(j(,                     Sl,~ ..i12

       lknciit P~IYlm:nlS                                                     (1,160.7771                    II.073,')Xg I                       (XIJ.7X') I
       ",penses                                                                 (2,j().,179 I                  (2,1(),·17<JI                              Il
        ['rans krs                                                                        0                    (291l.27'J)                      291l.27l)

       Assets JanUlll,) I. 199X                                             $,11 J70.977                    $37.22 I ,XI"                    $1.I.1').111

       Transferred Prepaymcnt Credits                                                      0                               ()                             ()

       Contributions                                                                       0                                IJ                            0
       Other Transactions                                                        ('19,791 )                       (.1'),7') I )                           0
       Earnings                                                                5,303.655                        I,7 (,(J.7 '1                    5.ih,')()2
       Benelit PaYlllents                                                     12.002.2 I I)                   ( I.XXIU'I,III                    112 I ,'i I I
       Expenses                                                                 (2h(), I ~L)I                    1225"XI I                       (.,1.71,51
       I'ranskrs                                                                          ()                     Id99, I I, II                   I')').I h I
                                                                                                                                                         --­
        Assets December 3 I. I ')9X                                         $,I,jJ62,IX I                   'li39,3.'3,12()                  $),()2")JI(J I
        Per LJuS                                         ')/                $4cl,362.481                    $39.339,261                      'li5,O."l.217
        Asset Variance                                  ilL                           $0                          ('liS,X,II)                      hX·I,1



    FOOTNOTES

     11 	 We calculated  the Mediearc segment pcnsion assets based upon the auditcd asset I'ractioll (7,671() perccnt). We cOlllrutcd
        the asset lI'action ilS e'\rlained in thc lillllillgs section 0[' the rerorl. The amounts shOll n I(lr the "Other" scgll1ent rerresellt the
        di ITerencc between the lotal COllll'illl) ,lIld Ihc Medicare seglllcni. AII pension :lssets lire S!lOIlII :11 Illlll"ket \ llille,

     2; 	 We ohtailled lolal ('Oll1riln) cOlltrlhlltillll illlillunh Ih,nllhe i1ctllarial \ililliltion rcports ilild Ikl"lrilllenl ol'I.llhllr'llllertlili
        Rcvenuc Service (D()I IRSI I OrlllS 5)011. \\'e .i1loe'liCLi IOlili Compan) contrihlliions to Ihc r,kdic,lrl' Segmcnl h<locd Oil the
        ratio of the Medicare segmcnt rllndillg I.lrget divided h) the lotal Company runding wrgel. COlltributions in e,cess or the
        funding targets \\ere treated as rrepaYlllent credits and accounted ror in the "Othcr" segment untilnecded tll I'uml pcnsion
        costs in the futun;,

     ;U 	We obtained the other transactions amounts rrolll the actuarial valuation reports, I'hese other trllllSilctiollS 111110llniS reprl'scllt
         a transfer of plan asscts from the houri) pension plan to the salaried pension rlan .

     .'U 	 We obtained
I                    investillent earnings i'ro111 tile ilctul1l'ial \ ailliitillil reports :lnd tile I)()I lfl{S l'OI'111S 5"()II. We 'lllll('iltcd
        investment earnings hnsed on the \\cighted :I\erage orthe Illlirket vlilue or assets (MVA) uv'lil'lhk during the 1'1:111 Ye~lr, I'he
        weighted average llf'r'v1V/\ is hased llll thl' r,ltillllrthc segment's \\cighted d\eragl' to thl' IOlal ('omp,ln) \\elghted :I\CI':lge.
        which is hased on the tillle of' contrihutiollS, henefit pilYlllents. and ,Idministl'ative C:>'PC)lSCS.
                                                                                                                                                       ,lol'l



'!iL 	 We
        based the Mcdit:,lrc scglllcnt's bellelil pdymenls 011 actual paymenls to Medicare relirccs, We ohlllined the henelit
     payments from docuillents provided 11: J\lue Cross Blue Shield L~niteJ or Wisconsin (II( 'Ihl 'W).

(If. 	 \1../e allocated administrati\c expenscs 10 tile 'vkdican: ,ctlmcnt in proponion to in\eslmcnt
       /\ccoullting Standards.

     We identified participant transkrs hc\\\c'Cn segments hascd on the participunt dat,1 lilcs provided hy BellS! I\\"s m:tuari:iI
     consulting IIrm. /\sset tnlnslcrs were cqualto the accrued actuarial liahility determined under the accrued hene/it cost
     method,

~L   Prepayment credits represcnt funds ,lvailahlc to salisl)' i'ulure i'unciing requirements and arc applied to i'uturc: i'unding
     requirements before 1;1I1Ten\ year cOlltrihutions in order to reduce interest costs to the Federal Clo\ ernment. I'n:payrnent
     credits arc transferred to the Mcdic,uT seglll\:llt as necckd to cover funding n.:quir\:menls,

2l. We obtained the      pen~i{)Il   dSS.:t alilOUIlls   'I?i   "I' Jkcemhcr 31, 199H.   i'rol1l   the I)OLiI RS   ['Ol'ill   55()()

     The lIsset variuJl\:e rerrl'sents thl' di!'i'en:nl'c hl'l\\cen our cukulatioll orrvlcdicare sl'!':l11cnt pensioll assets and      1~('IISll\\'s
     caiculutioll orlhe iv1cdic'IIIY segl11clli [lensil)11        a~sets,
                                                                                                               Page lof3



                             APPENDIX B: AUDITEE COMMENTS 





... CMS Con_ltd A$rnl                                                            Medicare
NotioN1 Govt'ffl~t5<""ict.-;, 1nc.
www.NCS~ 'f<lic.«:.(om




January 28, 2010

Mr. Patrick J. Cog ley
RegionallnspectorGeneral for Audit Services
National Extemal Audit Review Cente r
1100 Walnul St., Suite 850
Kansas City, Missouri 64106-2197

Reference: Report Number A-QHJ9·0Q321

Dear Mr. Cogley:

We have received the draft audit report from the Inspector General entitled "Review of Pension
Segmentation Requirements For the Hourly Qualified Pension Plan At Blue Cross Blue Shield Uni ted
of Wisconsin, For The Period January 1, 1986 To December 31, 1998," and thank you for the
opportunity to respond.'

We concur with the findings and recommendations outlined in the report and will m<lke the
approp riate adjustments to Medicare segmen t pension assets and lotal company pension assets. We
will also review the processes in place to update Medicare segment plan assets to ensure those
processes foUow CAS 412 and 413.

We beUeve the accuracy and clarity of the report would be enhanced with the adoption of the
foUowing proposed revisions:

          In the "Executive Summary" section (page i) within the "Summary of Findings" caption, please
          replace that paragraph with the foUowing:

         BCBSUW correctly computed the initial allocation of the Medicare segment pension assets as of
         January 1, 1986; however, BCBSUW used <In incorrect total company benefit payments amount,
         resulting in an incorre<:t in\'esbnent eamings amounl when allocating investment earnings to
         the Medicare segment for calendar year 1994. Also, BCBSUW allocated a portion of 1995
         income to the 1994 year. As a resu lt, BCBSUW understated the Medicare segment pension
         assets by $5,844 as of December 31, 1998.


I The Medicare contract to which this report relates was novated to National Government Services, Inc. (NGS)

eFFective January 1, 2007.
                                                                                                       Page 2 of3




Jan uary 28, 2010
ra ge 2 of 3

    • 	 In the "Background" section (page 1) within the "Blue Cross Blue Shield United of Wisconsin"
        caption, please replace the first sentence in the first paragra ph with the following:

       Blue Cross Blue Shield United of Wisconsin (BCBSUW) through ils United Govem.ment
       Services (UGS) business unit, administered Medicare Part A operations under cost
       reimbu rsement conlrClcts with the Centers for MedicClre & Medicaid Services (CMS).

    • 	 In the "Background" section (page I) within the "Blue Cross Blue Shield United of Wisconsin"
        caption, please rep lace the thi rd paragraph with the following:

       In 2003, BCBSUW and UGS were purchased by WeJlPoint Health Ne tworks, loc. ("WHN").
       WHN became a part of Anthem, Inc. on November 30, 2004, and Anthem Inc. changed its name
       10 WcllPoinl, Inc. Effective November 17, 2006 a consolidation of certain Medicare Operations
       occurred forming a new subSidiary of WelWoinl Inc. called National Govem.ment Services, Inc.
       This consolidation included ues and the ues Pension Plan remained a stand-alone defined
       benefit pension plan. Thus although we are addressing this reporllo NGS, we will associate
       the term BCBSUW with OUT findings and ~ommendations regilrding the segmentation of the
       sal1U"ied pension plan pension assets for the period January 1,1986, to December 31,1998.

    • 	 In the "Findings and Re(Ommendation" caption (page 3), please replace the first paragraph
        with the paragraph reflected in the first bullet above.

        In the "Updilte of Medica re Segment Pension Assets" section (page 4) within the "Earnings and
        Expenses Understated" caption, please replace the first sentence of the paragraph with the
        following:

       BCBSUW understated invcshnent earnings, less ad ministrative expenses, by $5,844 for the
       Medicare segment primarily because it used an incorrect total company benefit payments,
       resulting in an incorrect total company inveshnent earnings amount when aliocating
       inveshnent earnings to the Medicare segment for calend ar year 1994."

    • 	 In the Appendix (page 4 of 5), the asset variance for the "other segment" should be reflec ted as
        (55,844) and the asset variance for the "Medicare" segment should be reflected as 55,844.
                                                                                                     Page30f3




January 28, 2010
Page 3 of 3

We appreciate the opportunity to respond to this draft report. If you have any further questions, I can
be reached at 414-459-5606 or via email at todd.reiger@wellpoint.com.

Sincerely,




Todd W. Reiger, CPA
Director of Accounting & Reporting

CC: 	         Sandy MUler
              Michael Kapp
              Jim Elmore
              Rob Squire
              Wendy Perkins
              Joanne Imel - WellPoint
              Marilyn Bryan - CMS
              Jenenne Tambke - O IG
